                                                         .   ..   .


                                        CLOSEOUT FOR M92090039


           This case was brought to O I G by -      ,                  a program
officer in the C            r   o  g   r    a    m    , on, B -
                                        -
                                                                           1992.
He
 --     had received a 0 e-mail from 4-
           -                                                                (the
com~lainantl.
-         I - - - -
                        who had reviewed a ~ r o ~ o s aand
                                                         l      found a possible
                                                     i ,
                      -   -


- - - - - --- - - of'
instance          - - 'olaaiarism. The ~ r o ~ o s awas               --entitled
I

submitted by                               and Dr.
                                   (the subjects). The complainant alleged
that four paragraphs constituting the section entitled r1131(15
                 in the background section of the proposal (pages 8-9) were
identical or nearlv identical to the first four paragraphs of an
                                                                   - and
- - - -        ~




article
-- - - - - - - bv
               -   the comGlainant.
                        - -   .   L -,
                            entitled
1                                      .
                                      This article was originally published




     - *
submitted to
                        -
                                  -
     O I G examined the material in the proposal and the article and
confirmed that they were identical or nearly identical. We wrote
to the subjects asking for their comments and explanations. The
subjects explained that the first author of the article (the
complainant) had supplied one of the subjects with the paragraphs
in question for inclusion in a collaborative proposal to
                            . Four weeks later, the proposal was
                       with the first author listed as a co-
investigator. The first author reviewed and approved the text of
the proposal and also signed it.           The subjects incorporated
                                                                           -
material from the m p r o p o s a l into their m p r o p o s a l , including
the four paragraphs referred to in the plagiarism allegation.
After receiving the letter from O I G , the subjects contacted the
first author and requested that he send us a letter confirming
their account. He then did so.
     O I G directed the subjects to revise their proposal to indicate
that the copied material was supplied by the complainant and was
excerpted from an article of which he was first author. They have
now S U D D I ~corrected
                 ~~       material to O I G and the NSF Division 0

     O I G wrote to the subjects and the complainant pointing out
that problems such as this can arise when researchers do not
                                             Page 1 of 2
clearly specify in advance the terms of their collaboration and the
rights of the collaborators to work produced or used jointly.
     OIG has determined that there is no substance to the original
allegation of misconduct. At most, the subjects were careless in
reusing material developed by a former collaborator and supplied
for submission in a previous collaborative research proposal
without taking account of the origin of that material. This case
is closed and no further action will be taken.




Concurrence:




Donald E. Buzzelli
Deputy Assistant Inspector General for Oversight


.M

Assistant Inspector General for Oversight




Montgomery K. Fisher
Counsel to the Inspector General


cc:   Signatories
      Inspector General

                               92-39
                           Page 2 of 2
